HHS/OIG-Audit--"Review of Hospital Outlier Payments Under the Medicare Program - Blue Cross of Rhode Island, (A-01-94-00519)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Hospital Outlier Payments Under the Medicare Program - Blue Cross of Rhode Island," (A-01-94-00519)
March 14, 1995
Complete
Text of Report is available in PDF format (1.67 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Under Medicare, fiscal intermediaries (FI) reimburse hospitals a predetermined amount for inpatient services furnished
to Medicare beneficiaries depending on the illness and its classification under a diagnosis related group (DRG). Inpatient
stays which are extremely long of have extraordinarily high costs are eligible for an additional payment called an outlier
payment. This final audit report points out that Blue Cross of Rhode Island overpaid two Rhode Island hospitals almost
$2 million for outlier cases over a 3-year period. These overpayments occurred because the FI misunderstood the Medicare
regulations governing cost outlier payments. We recommended procedural improvements and a financial adjustment to recover
the overpaid amounts.